<html>
<title> - MARKUP OF H. RES. 115, THE OMNIBUS COMMITTEE FUNDING RESOLUTION; COMMITTEE RESOLUTION FOR FRANKED MAIL ALLOWANCES FOR CERTAIN COMMITTEES; AND DISPOSITION OF ELECTION CONTEST IN THE 28TH DISTRICT OF TEXAS</title>
<body><pre>[House Hearing, 113 Congress]
[From the U.S. Government Publishing Office]



 
   MARKUP OF H. RES. 115, THE OMNIBUS COMMITTEE FUNDING RESOLUTION; 
     COMMITTEE RESOLUTION FOR FRANKED MAIL ALLOWANCES FOR CERTAIN 
COMMITTEES; AND DISPOSITION OF ELECTION CONTEST IN THE 28TH DISTRICT OF 
                                 TEXAS 

=======================================================================

                                MEETING

                               before the

                           COMMITTEE ON HOUSE
                             ADMINISTRATION
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED THIRTEENTH CONGRESS

                             FIRST SESSION

                               __________

                 Held in Washington, DC, March 14, 2013

                               __________

      Printed for the use of the Committee on House Administration


                       Available on the Internet
                             www.fdsys.gov


                               ----------
                        U.S. GOVERNMENT PRINTING OFFICE 

80-287 PDF                      WASHINGTON : 2013 

  For sale by the Superintendent of Documents, U.S. Government Printing 
   Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
       DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                         Washington, DC 20402-0001




                   COMMITTEE ON HOUSE ADMINISTRATION

                 CANDICE S. MILLER, Michigan, Chairman
GREGG HARPER, Mississippi            ROBERT A. BRADY, Pennsylvania
PHIL GINGREY, M.D., Georgia            Ranking Minority Member
AARON SCHOCK, Illinois               ZOE LOFGREN, California
TODD ROKITA, Indiana                 JUAN VARGAS, California
RICHARD B. NUGENT, Florida

                           Professional Staff

                      Kelly Craven, Staff Director
                  Jamie Fleet, Minority Staff Director





    MARKUP OF H. RES. 115 THE OMNIBUS COMMITTEE FUNDING RESOLUTION, 
     COMMITTEE RESOLUTION FOR FRANKED MAIL ALLOWANCES FOR CERTAIN 
COMMITTEES, AND DISPOSITION OF ELECTION CONTEST IN THE 28TH DISTRICT OF 
                                 TEXAS

                              ----------                              


                        THURSDAY, MARCH 14, 2013

                          House of Representatives,
                         Committee on House Administration,
                                                    Washington, DC.
    The committee met, pursuant to call, at 3:07 p.m., in room 
1310, Longworth House Office Building, Hon. Candice S. Miller 
(chairman of the committee) presiding.
    Present: Representatives Miller, Harper, Gingrey, Schock, 
Rokita, Nugent, Brady, and Lofgren.
    Staff Present: Kelly Craven, Staff Director; Phil Kiko, 
General Counsel; Peter Schalestock, Deputy General Counsel; 
Kimani Little, Parliamentarian; Joe Wallace, Legislative Clerk; 
Yael Barash, Assistant Legislative Clerk; Salley Wood, 
Communications Director; Bob Sensenbrenner, Elections Counsel; 
Jamie Fleet, Minority Staff Director; Teri Morgan, Minority 
Deputy Staff Director; Matt Pinkus, Minority Senior Policy 
Analyst; Thomas Hicks, Minority Elections Counsel; Mike 
Harrison, Minority Professional Staff Member; Greg Abbott, 
Minority Professional Staff Member; and Eddie Flaherty, 
Minority Professional Staff Member.
    The Chairman. I would like to call to order the Committee 
on House Administration for today's committee markup.
    The meeting record will remain open for 5 legislative days 
so that Members might submit any materials they wish to be 
included.
    The Chairman. And a quorum is present, so we will proceed.
    Today we have three items before the committee: first of 
all, House Resolution 115, which is the omnibus committee 
funding resolution, which will authorize committee budgets for 
the 113th Congress. We also have a committee resolution to 
approve franked mail allowances for committees for the 113th 
Congress and an original resolution relating to an election 
contest that happened in the 28th Congressional District of 
Texas.
    Every Congress, this committee holds hearings to examine 
the budgetary needs of House committees to help ensure that 
they have adequate resources. This funding process, perhaps one 
of our most important responsibilities of this committee, can 
significantly impact the legislative process, as committees 
bear the lion's share of Congress' workload.
    Last week, we had 2 informative days of hearings where we 
heard from all of the chairs and the ranking members of the 19 
House committees that came before us. And we certainly heard 
some very compelling and thoughtful testimony from each of the 
chairmen and the ranking members about their respective budgets 
and their commitment to uphold the equitable two-thirds/one-
third allocation between the majority and the minority offices. 
And, most importantly, they talked about how they were going to 
do more with less, which is a very--certainly a topic that we 
are all very, very familiar with.
    Leading by example, the House cut committee budgets by 
approximately 11 percent in the last Congress--the largest cut 
to committee funding since the 104th Congress. And today we are 
faced with yet another cut, this time obviously triggered by 
the sequester, sequestration.
    After much deliberation and consultation with each 
committee, we had to make some very difficult, difficult 
choices. And, of course, like all of our MRAs, the committee 
funding authorizations have to be adjusted to reflect the 
reduced spending levels detailed in the sequestration order.
    To match the post-sequestration funding level, the total 
authorization for House committees must be reduced by 11 
percent from the 2012 level. Therefore, with few exceptions, 
each committee authorization has been reduced by 11 percent, or 
within a percentage point or so of 11 percent. And we base this 
on their anticipated workload for the 113th Congress.
    The Budget Committee, the Committee on Ways and Means, and 
the Select Committee on Intelligence have been given slightly 
smaller reductions. Most committees will be faced with 
tremendous oversight responsibilities in 2013. However, given 
the current state of our economy, sequestration, the dire need 
for tax and entitlement reform, and the increased cyber threats 
to our digital infrastructure, these three committees have a 
particularly daunting agenda and therefore require some 
reprieve from the authorized reductions. To accommodate for 
these exceptions, we have adjusted the authorization of the 
Budget Committee based on their ability to absorb a slightly 
larger reduction in 2013.
    Again, we certainly, all of us, every one of us, understand 
the challenges of trying to stretch our resources. And we just 
have to try to absorb these cuts as best as we can. And I know 
that every committee, including this, will continue to function 
at a very high level, even with reduced resources.
    Our second item for consideration is a committee resolution 
to approve franked mail allowances for the committees for the 
113th. This resolution limits $5,000 per year for each 
committee's franked mail.
    And our third and last item on the agenda is an original 
resolution to dismiss the election contest in the 28th district 
of Texas.
    And, with that, I would now recognize our ranking member, 
Mr. Brady, for his opening statement.
    Mr. Brady. Thank you, Madam Chairman. And thank you for 
convening this markup and for working with us on all the 
scheduling issues last week with regards to our marathon 
hearings.
    I do urge this committee to oppose this resolution. We 
imposed the equivalent of a sequester on all House committees 
in 2011-2012, so we are already well ahead of the curve. Those 
cuts, as we heard in detail from chairs and ranking members 
last week, have already created significant hardships in paying 
the salaries of staff, conducting oversight travel, and holding 
hearings. These are not luxuries we can simply wish away. We 
will have to continue to be able to conduct the people's 
business.
    To pile on further with automatic sequestration cuts devoid 
of any rational basis and to furlough our staff would cause 
damage to the legislative process and to the people who make it 
possible for us to operate. It is cutting off our nose to spite 
our face.
    We should look for all opportunities to alleviate the 
impacts of the cuts. That is why I will later offer a 
substitute amendment to freeze funding at the level of the 2012 
resolution to manage our House finances in a more sensible 
manner. I urge my colleagues to oppose this resolution.
    Thank you, Madam Chair.
    The Chairman. I thank the gentleman for his opening 
statement.
    And I would ask if any other members of the committee have 
an opening statement?
    The chair recognizes Mr. Gingrey.
    Mr. Gingrey. Well, Madam Chairman, I want to thank you for 
calling the markup today on committee funding for the 113th 
Congress.
    As you know, with the implementation of the sequester on 
March the 1st, across-the-board spending cuts did take effect. 
Last week, this committee had a chance to hear from our 
colleagues, the chairmen and ranking members of each House 
committee, about how they would handle the impact of the 
sequester.
    I believe that this committee is acting in a deliberative 
and a fair manner when determining committee budgets for this 
113th Congress. Each committee serves an important function, 
and while all will have to continue to produce good work with 
less, I am confident that they will succeed in doing that.
    Today's markup gives us an important chance to show that, 
as families across the country struggle to make ends meet, this 
committee and the House as a whole plan to lead by example.
    So thank you, Madam Chairman. And I yield back.
    The Chairman. I thank the gentleman.
    The Chairman. The first item on the agenda is consideration 
of the House Resolution 115, the omnibus committee funding 
resolution for the 113th Congress.
    [The information follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    The Chairman. Again, as I said in my opening statement, we 
have talked to every chairman, every ranking member. We 
recognize the cuts are difficult, but it is flat-lined in the 
CR and there simply is a finite pot of money to go around. And 
I would hope that the committee would support the resolution.
    I would recognize the ranking member, Mr. Brady, if he has 
any comment.
    Mr. Brady. Yes, Madam Chair. If it is appropriate, I would 
like offer an amendment in the nature of a substitute.
    The Chairman. Yes.
    Mr. Brady. Thank you.
    My amendment is very simple. I propose we freeze each 
committee's authorization for this year and next year at last 
year's level. Under my approach, House committees' funding will 
have been the same for 3 years, unchanged since we last reduced 
funding at the beginning of 2012. I don't believe there is a 
Member of this House who couldn't defend a 3-year freeze on 
continuing funding.
    As the former chairman of this committee, it appeals to me 
because it offers every committee chairman and ranking minority 
member certainty. Every committee knows it can work with this 
figure and accomplish what it needs to accomplish to fulfill 
its responsibility to the House of the American people because 
it has already done so.
    Second, it makes sense. During our hearings, the chairman 
of the Oversight and Government Reform Committee, Mr. Issa, 
took great pride in ascertaining that, through the work of his 
committee, he has saved the government 1,000 times what the 
committee had spent last year. This is a handsome return on the 
investment. I am certain that other committees could 
legitimately make the same boast, and, that being the case, why 
should we not invest this year or next in any committee that we 
invested in last year?
    Third, it bears pointing out that no committee is required 
to spend every dollar it is authorized to spend. In fact, 
several committees, including this one, last year returned 
hundreds of thousands of dollars to the Treasury after judging 
they had accomplished their work, and no doubt would do it 
again this year and next. No chairman and ranking member is 
required to spend everything authorized. But my approach gives 
effective chairmen resources to earn the kind of return that 
Mr. Issa boasts of.
    My amendment would do one other thing along these lines; it 
would require each committee at the end of this year to report 
back on how much the agency it oversees has saved. This will 
give each chairman and ranking minority member the opportunity 
to demonstrate how much they helped to save.
    I urge the support of my amendment and yield back the 
balance of my time.
    The Chairman. I thank the gentleman for that.
    I should have called up the resolution and said that the 
first reading of the resolution is dispensed with and the 
resolution is considered read and open for amendment, at which 
time you amended it, and I certainly appreciate that. And I 
appreciate the amendment, which will be considered as read.
    [The information follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    The Chairman. I would only say this. Again, it certainly is 
a difficult time to be involved at the Federal level, as far as 
our budgeting, but no more difficult than what is being 
recognized, certainly, by the American people, having come to a 
very difficult economic transition here.
    And I think the House certainly has led by example. We did 
have a 5 percent cut in the 112th and followed by a in-the-
sixth-percentile cut, now an 8 percent cut to our own 
individual MRAs, which happened just a week ago. And these are 
very difficult choices for us all to be making as Members of 
Congress within our own MRAs.
    And now, as we look at what is happening with the 
committees, particularly when we think about, during the time 
that the House has really been leading by example, the 
executive branch for nondiscretionary defense is--for 
nondefense discretionary spending has gone up I think 16.7 
percent during the same time. And yet we are challenged, all of 
our committees are challenged with exercising the appropriate 
oversight.
    So it is a difficult time. And I appreciate the gentleman's 
sentiments not to cut the committees' budgets, but the money 
has to come from somewhere else then. If there is an offset--I 
am not sure if you have an offset in mind. But, at any rate, I 
will be opposing the gentleman's amendment, but I certainly 
appreciate the spirit in which it is offered.
    And I would ask if there are any other Members that want to 
speak to the amendment.
    Ms. Lofgren. Madam Chair.
    The Chairman. The gentlelady from California.
    Ms. Lofgren. I would just like to briefly speak in support 
of Mr. Brady's amendment.
    It is true that this is a difficult environment, and, 
certainly, each one of our personal offices has received 
reductions, and I haven't heard any Members coming in and 
asking for relief from that. And I think that that is 
appropriate. We know that is where we live, and we have to 
manage that.
    But some of these committees, as the ranking member said, 
are going to save us a lot of money. And I know that this isn't 
the position you wish to be in either, but I really would hope 
that we might at least keep flat-line funding and see how many 
savings can be accomplished by the committees within those 
budget limits. Because I know in the last Congress there were 
committees that said, you know, that they didn't have enough 
and yet, through prudent management, they were able to give 
money back. And I give credit for that. But some committees, 
given the workload they had, it is just not going to be 
possible for them to do that and to fulfill the duties that we 
have asked them to do.
    So I would hope that we could do this on a sort of salary-
savings basis and maybe revisit where we are in a couple of 
months and see how the spending levels are down and see what 
maneuvering we might be able to make. I would recommend that as 
an alternative to the offset that is not included into the 
amendment.
    The Chairman. I thank the gentlelady for her comments.
    Are there any other comments?
    If not, the question is on the amendment to the resolution.
    All those in favor of the amendment, signify by saying yea.
    Those opposed, signify by saying nay.
    In the opinion of the chair, the nays have it. The nays 
have it. The amendment is not agreed to.
    Are there any other amendments?
    The gentlelady from California.
    Ms. Lofgren. I have an amendment----
    The Chairman. Yes.
    Ms. Lofgren [continuing]. Which I would offer now.
    The Chairman. The gentlelady is recognized for 5 minutes to 
speak on the amendment.
    Ms. Lofgren. Thank you. And I don't know that I will take 
the full amount.
    But I have served on a variety of different committees in 
this House--on the Judiciary Committee, the Science Committee, 
the Homeland Security Committee, the Ethics Committee, this 
committee. And I am mindful that the Judiciary Committee is 
about to engage in a level of activity that I don't think the 
funding is going to help them meet that obligation.
    As you know, there has been tremendous discussion about gun 
violence, and, in talking to Mr. Goodlatte just a few hours 
ago, our efforts relative to the Second Amendment are going to 
be very time-consuming. And I know that on both sides of the 
aisle we want that to be done properly. I don't doubt that you 
feel the same way.
    I would add also that there has been tremendous 
speculation, and I think accurate, that we may finally be able 
to work in a bipartisan basis on immigration reform. I can 
assure you, as the ranking member of that subcommittee and 
former chairperson of the Immigration Subcommittee, that Mr. 
Gowdy and I will work together very collaboratively. But the 
job is a massive one.
    And my amendment would allow the Judiciary Committee just 
to maintain its current funding. That will mean reductions in 
staff, in some cases. But at least if we were to do that for 
the remainder of this fiscal year, we might have an opportunity 
to actually accomplish those two weighty goals and be able to 
take the reduction in the following year.
    So that would be my amendment, Madam Chair. And I thank you 
for allowing me to offer it with these brief comments.
    [The information follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    The Chairman. I appreciate the amendment of the gentlelady 
from California, and, again, I appreciate sincerely the spirit 
in which it was offered.
    In fact, in regards to the Judiciary, you are absolutely 
right, and we did hear that testimony from both the chairman 
and the ranking member about step-by-step immigration reform, 
as we go forward, as a distinct possibility of that happening 
during this session, perhaps this year, and certainly in 
regards to the Second Amendment, as well, and some of the 
various proposals that are floating around here on both sides.
    I think there is going to be quite a workload by the 
Judiciary. And really, as a consideration of that--that is, you 
see that Judiciary's percentage cut is lower than some of the 
other committees. Again, I recognize the tremendous workload 
that Judiciary, and the other committees as well, are 
absorbing, or will have in absorbing these cuts. And it is just 
a difficult time, as well.
    So I will be opposing the gentlelady's amendment. Again, I 
appreciate the spirit in which it has been offered.
    Any other Members have comments in regards to the 
amendment?
    Mr. Schock. Madam Chairman, I would just----
    The Chairman. Mr. Schock.
    Mr. Schock. Thank you.
    I would just add that, with regards to both the amendments 
that my friends on the other side of the aisle have offered, it 
is frustrating that these cuts are having to take effect across 
the board, really in essence of how they are happening, because 
of the sequestration. And I would just say that, you know, the 
House has done its work in passing an alternative to 
sequestration. Unfortunately, the Senate did not reciprocate, 
and so we are having to move forward with these cuts.
    I do think it is a discussion we need to have moving 
forward with any other further deficit-reduction measures that 
the House and Senate agree to because of the point that was 
raised by the chairwoman, which is: When I came to Congress 5 
years ago, discretionary spending from 2008 to 2010 went up by 
40 percent. The executive branch received 16 percent increases 
in their spending, and certainly our MRAs and committee staff 
salaries and budgets did not increase by those amounts.
    So I think when we look at reducing the size of government 
and making cuts in future deficit-reduction measures, we need 
to look historically at how fast certain agencies have grown 
when we go about our cutting.
    Because I think the point that the minority is making is a 
relevant one, which is the work that we do in the House is an 
important one to accountability within these agencies and 
accountability of the Federal Government and also in good law-
making. And the reality is no other agency or unit of 
government can do that which these committees are charged with 
or us as elected representatives with our MRA do. The casework 
that we do, the accountability that we administer to these 
agencies on behalf of our constituents is an important 
function, and there is no one else that can do that.
    And so I certainly share these concerns, am equally 
frustrated by the kind of across-the-board cuts that are having 
to happen. But we are where we are today, I would simply say, 
by, in my view, the inaction of the Senate to give us a scalpel 
as opposed to a hatchet. And so now we will, moving forward, I 
think have to hopefully include these thoughts in our next 
efforts to right-size our budget.
    With that, I will yield back.
    The Chairman. Any other Member wish to speak to the 
amendment?
    Mr. Brady. Yes. Madam Chair.
    The Chairman. Mr. Brady.
    Mr. Brady. Thank you. And I speak in favor of the 
gentlelady from California's amendment.
    And I sat here with these hearings, and I asked every 
chairman and ranking member about their staff. And I find 
myself a little perplexed here. Because if we would do flat-
line or we would do some other way other than cutting some 
budgets, we are probably--I am sitting here helping the other 
party getting two-thirds more, then my party would get one-
third more.
    And I tell you that to say this: I do that not because I 
want people to get an increase or be able to hire more people. 
I worry about the people that they attract, especially 
Judiciary. I worry about every staff member on all these 
committees, especially Judiciary because most of them need a 
legal background, and I wonder how we attract them. And then we 
attract them, and when we do, how do we keep them? Not only how 
do we attract them or try to bring them in--I know they are all 
dedicated, but when you have to pay a mortgage, you can't pay 
it with dedication. You can't pay car payments, you can't pay 
schooling with dedication. And I wonder and I worry about--and 
every chairman and ranking member agreed that they are having a 
hard time, A, attracting them; B, keeping them, with their 
institutional knowledge.
    And I understand that we have to do cuts. We are going to 
do it with no complaints for doing our own MRA, and it is what 
it is. But I wonder about the effectiveness of this House and 
how we can truly do the people's business when we can't get 
qualified people and, more so, we can't keep qualified people.
    So that is why I would support this amendment. And I 
appreciate your time, and I yield back mine. Thank you.
    The Chairman. I thank the gentleman's comments.
    Any other Members?
    All those in favor of the amendment will signify by saying 
yea.
    Those opposed will signify by saying nay.
    In the opinion of the chair, the nays have it. The nays 
have it. The amendment is not agreed to.
    Are there any other amendments?
    If not, I move that the committee favorably report House 
Resolution 115 to the House. And the question is on the motion.
    All those in favor of the motion, signify by saying yea.
    Opposed, say nay.
    In the opinion of the chair, the yeas have it. The yeas 
have it. The motion is agreed to.
    Without objection, the motion to reconsider is laid upon 
the table. Does any Member----
    Mr. Brady. Excuse me, Madam Chair.
    The Chairman. Mr. Brady.
    Mr. Brady. I would like to ask that the minority Members 
request 2 additional calendar days provided by clause 2 of Rule 
XI of the Rules of the House in order to file reviews.
    The Chairman. Without objection.
    Mr. Brady. Thank you.
    The Chairman. All right. We will move to the next item. 
Very well.
    The next item on the agenda is consideration of Committee 
Resolution 113-5, which is the committee franking resolution.
    Again, this committee resolution essentially caps the 
amount of franked mail that all the respective committees can 
utilize at $5,000, I believe is the number. And I will be 
supporting the resolution and hope that the committee sees fit 
to pass the resolution.
    And I ask the ranking member if he has any comment.
    Mr. Brady. No.
    The Chairman. So I call up and lay before the committee 
Committee Resolution 113-5. Without objection, the first 
reading of the resolution is dispensed with, and the resolution 
is considered read and open for amendment at any point.
    [The information follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    The Chairman. Is there any amendment to the resolution?
    If there are no amendments, I move the committee agree to 
the committee resolution. And the question is on the motion to 
agree to the resolution.
    All in favor, signify by saying aye.
    Opposed, say nay.
    The motion carried. In the opinion of the chairman, the 
motion is agreed to.
    And, without objection, the motion to reconsider is laid 
upon the table.
    And the last item that we have before the committee is an 
original resolution to dismiss an election contest which 
happened in the 28th district of Texas.
    I think this is a very simple resolution. I would ask the 
ranking member if he has any statement on the resolution.
    Mr. Brady. Thank you, Madam Chairman. I join you in 
recommending dismissal of this frivolous election contest.
    I yield back the balance of my time.
    The Chairman. I appreciate that.
    I will now call up and lay before the committee the 
original resolution. And, without objection, the first reading 
of the resolution is dispensed with, and the resolution is 
considered read and open for amendment at any point.
    [The information follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    The Chairman. So are there any Members that want to offer 
an amendment to the resolution?
    If not, I move the committee favorably report the original 
resolution to the House. The question is on the motion.
    All those in favor, signify by saying yea.
    Opposed, say nay.
    In the opinion of the chairman, the yeas have it, and the 
motion is agreed to.
    Without objection, the motion to reconsider is laid upon 
the table.
    And for all of the matters that the committee has 
considered today, I ask unanimous consent that the staff be 
authorized to make technical and conforming changes if 
necessary.
    Without objection, so ordered.
    And this concludes all the matters before the committee. I 
certainly want to thank all the Members for their 
participation, their thoughtful amendments, thoughtful 
conversation.
    And, with that, the meeting is adjourned.
    [Whereupon, at 3:31 p.m., the committee was adjourned.]

</pre></body></html>
